                                      Documentation of Oral Communications From Registered Lobbyist
                                          Concerning Policy Matters Related to the Recovery Act
This notification is made pursuant to Sections 3(d)-(e) of the Presidential Memorandum For Heads of Executive Departments and Agencies dated March 20,
2009, entitled Ensuring Responsible Spending of Recovery Act Funds. At the outset of the oral communications concerning the Recovery Act, individuals or
parties appearing or communicating were asked if any of them were lobbyists registered under the Lobbying Disclosure Act. The registered lobbyists
appearing or communicating were informed that DOT OIG officials would discuss policy matters only and that DOT OIG employees would have no oral
communications concerning particular projects, applications, or applicants for funding under the Recovery Act. The registered lobbyists were informed that
they could provide written communications concerning particular projects, applications, or applicants for funding under the Recovery Act, which we would
publicly post on our Recovery Act webpage.

    Date                Time                      Registered Lobbyists                               DOT OIG Employees
                    (start to end)                (name and employer)                                 (names and titles)
 06/11/09          2:00 PM to            Robert L. Healy, Jr., American                 Kenneth Prather, Program Director
                   3:30 PM                 Public Transportation                        Rafael Nieto, Management Analyst
                                           Association (APTA)




                                                    Short Description of Substance of Oral Communications
 When scheduled (if unscheduled, state “Unscheduled”)
 Meeting scheduled via e-mail 06/10/09

 In-person or telephonic communication (if other, describe)
 Meeting in-person at American Public Transportation Association office,
 1666 K St. NW, Washington, DC 20006
 OIG Audit or project number (w/ hyperlink if available)
   ARRA Agency Scan - Phase II 09U3002M000

 DOT Mode and Program
   DOT/OIG/JA-40
   Program: Federal Transit Administration(FTA); Federal Railroads Administration (FRA)
 Subjects raised during oral communications and concise summary
 OIG discussed with APTA its members' experiences with DOT modes' implementation of ARRA, including successes,
 challenges, implementation of reporting requirements, capacity to execute both ARRA projects and ongoing programs,
 and possible improvements. OIG also heard APTA's views on# challenges that ARRA brings to the industry.

      Template A
      Page 1
